No. 20-5813

In the Supreme Court of the United States
GLENN YOUNG,
Petitioner
v.
DARREL VANNOY, WARDEN,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
PROOF OF SERVICE
Undersigned counsel certifies that, under Supreme Court Rule 29.3, the Brief
in Opposition was served on each party, or that party’s counsel, as listed below, on
February 5, 2021. Service was made by United States mail—with first-class postage
prepaid.
Glenn Young
457113, Pine – 2
Louisiana State Penitentiary
Angola, LA 70712
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 5, 2021.
/s/ Elizabeth Baker Murrill
ELIZABETH BAKER MURRILL

